U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: The Cherokee Nation v. Bernhardt, No. 19-93 7
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 23,
2020. The government's response is now due, after one extension, on March 27, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 27, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0937
THE CHEROKEE NATION
DAVID BERNHARDT, SEC. OF THE INTERIOR, ET
AL.

LLOYD B. MILLER
SONOSKY, CHAMBERS, SACHSE,
MILLER & MUNSON, LLP
725 EAST FIRE WEED LANE
SUITE 420
ANCHORAGE, AK 99503
907-258-6377
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM

